Case: 20-11581

APPENDIX A

Date Filed: 08/27/2020

Page: 1 of 6

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11581-G

DIMAS ALFARO-GRANADOS,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
Appeal from the United States District Court
for the Northern District of Georgia
ORDER:
Dimas Alfaro-Granados, a federal prisoner serving a sentence of life plus 35 years’
imprisonment for 1 count of conspiracy to commit a pattern of racketeering activity (“RICO”
conspiracy), 2 counts of a violent crime in aid of racketeering activity (“VICAR” crimes), and
2 counts of use of a firearm in relation to a crime of violence, filed a pro se motion to vacate his
sentence, pursuant to 28 U.S.C. § 2255. He raised two claims, arguing that (1) trial counsel
provided ineffective assistance by failing to (a) move to dismiss the VICAR crimes because
Alfaro-Granados was a juvenile when he committed the offense and (b) object to the mandatory
life sentence for the same reason, and (2) appellate counsel was ineffective in failing to appeal the
life sentence as a violation of Miller v. Alabama, 576 U.S. 460,465 (2012) (holding that the United
States Constitution prohibits sentencing juvenile offenders to mandatory life imprisonment
without parole). Alfaro-Granados argued that he should have been treated as a juvenile because

Case: 20-11581

Date Filed: 08/27/2020

Page: 2 of 6

he was under the age of 18 when he began his involvement with the La Mara Salvatrucha
(“MS-13”) gang, and could not be subjected to a mandatory life sentence. He stated that he was
bom on February 12, 1983.
After a response from the government, a magistrate judge issued a report and
recommendation (“R&R”), recommending that the district court deny Alfaro-Granados’s § 2255
motion. The magistrate judge stated that it was irrelevant whether Alfaro-Granados began his
participation with the MS-13 gang prior to his 18th birthday because the grand jury indicted him
for a conspiracy that began no later than 2005, the overt acts supporting the conspiracy charge
occurred between 2006 and 2009, the specific murders underlying the VICAR crimes occurred in
2006, and Alfaro-Granados was over 18 years’ old during all of those dates. Accordingly, the
magistrate judge concluded that neither trial counsel nor appellate counsel performed deficiently
in failing to raise arguments based on Alfaro-Granados’s age.
The district court adopted the R&R over Alfaro-Granados’s objections, denied his § 2255
motion, and denied him a certificate of appealability (“COA”) and leave to proceed in forma
pauperis (“IFP”) on appeal. We now address Alfaro-Granados’s motions for a COA and leave to
proceed IFP.

BACKGROUND:
A grand jury indicted Alfaro-Granados and 26 codefendants in a 29-count indictment.
Relevant here, the indictment charged Alfaro-Granados and others, in Count One, with conspiracy
to commit racketeering, in violation of 18 U.S.C. § 1962(d), based on their involvement in the
MS-13 gang, and racketeering activity that included murder, kidnapping, and robbery, beginning
on an unknown date, but no later than 2005. In Count Two, it charged Alfaro-Granados and others
with a violent crime in aid of racketeering, in violation of 18 U.S.C. §§ 1959(a)(1) and 2, based on

2

Case: 20-11581

Date Filed: 08/27/2020

Page: 3 of 6

aiding and abetting the murder of L.K. on or about October 27, 2006, in violation of
O.C.G.A. § 16-5-1(a) and (c), for the purpose of maintaining and increasing their position in
MS-13. In Count Three, it charged Alfaro-Granados and others with aiding and abetting one
another in the use and carrying of a firearm during and in relation to a crime of violence, as alleged
in Count Two, in violation of 18 U.S.C. §§ 924(c) and 2, and with causing the death of a person
during the course of the § 924(c) offense, in violation of 18 U.S.C. § 924(j)(l). In Count Four, it
charged Alfaro-Granados and others with a violent crime in aid of racketeering, in violation of
18 U.S.C. §§ 1959(a)(1) and 2, based on aiding and abetting the murder of J.G. on or about
December 24, 2006, in violation of O.C.G.A. § 16-5-l(a) and (c), for the purpose of maintaining
and increasing their position in MS-13. In Count Five, it charged Alfaro-Granados and others with
aiding and abetting one another in the use and carrying of a firearm during and in relation to a
crime of violence, as alleged in Count Four, in violation of 18 U.S.C. §§ 924(c) and 2, and with
causing the death of a person during the course of the § 924(c) offense, in violation of 18 U.S.C.
§ 924(j)(l).2
Alfaro-Granados proceeded to trial, where he was represented by attorney
William A. Morrison. Following trial, the jury returned guilty verdicts on Counts One, Two, and
Four. On Counts Three and Five, the jury found Alfaro-Granados not guilty of using a firearm in
relation to a crime of violence and causing the death of another, but guilty of the lesser-included
offense of use of a firearm in relation to a crime of violence and of using or carrying and firing the
firearm.

2 Alfaro-Granados was also indicted for additional charges in Counts 6, 7, 12, and 13, but
the jury ultimately acquitted him of those charges, and they are irrelevant to the § 2255 motion on
appeal.
3

Case: 20-11581

Date Filed: 08/27/2020

Page: 4 of 6

The district court sentenced Alfaro-Granados to life imprisonment on Counts One, Two,
and Four, to run concurrently with each other; 10 years’ imprisonment on Count Three, to run
consecutively to all other counts; and 25 years’ imprisonment on Count Five, to run consecutively
to all other counts, all to be followed by a total of 5 years’ supervised release.
Alfaro-Granados, through his counsel, Morrison, filed a notice of appeal, and argued on
appeal that his life sentence was cruel and unusual under the Eighth Amendment. We rejected this
argument and affirmed Alfaro-Granados’s convictions and sentences.
DISCUSSION:
In order to obtain a COA, a movant must make “a substantial showing of the denial of a
constitutional right.”

28 U.S.C. § 2253(c)(2).

The movant satisfies this requirement by

demonstrating that “reasonable jurists would find the district court’s assessment of the
constitutional claims debatable or wrong,” or that the issues “deserve encouragement to proceed
further.” Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quotation marks omitted).

When

reviewing a district court’s denial of a § 2255 motion, we review “findings of fact for clear error
and questions of law de novo.” Rhode v. United States, 583 F.3d 1289, 1290 (11th Cir. 2009).
To succeed on a claim of ineffective assistance of counsel, a defendant must show that
(1) his counsel’s performance was deficient, and (2) the deficient performance prejudiced him.
Strickland v. Washington, 466 U.S. 668, 687 (1984). Failure to establish either prong is fatal and
makes it unnecessary to consider the other. Id. at 697. Deficient performance “requires showing
that counsel made errors so serious that counsel was not functioning as the ‘counsel’ guaranteed
the defendant by the Sixth Amendment.” Id. at 687. As to the prejudice prong, the defendant must
show that there is a “reasonable probability that, but for counsel’s unprofessional errors, the result
of the proceeding would have been different.” Id. at 694. A “reasonable probability” has been

4

Case: 20-11581

Date Filed: 08/27/2020

Page: 5 of 6

defined as one “sufficient to undermine confidence in the outcome.” Id. Counsel is not ineffective
for failing to raise meritless issues. United States v. Nyhuis, 211 F.3d 1340,1344 (11th Cir. 2000).
The same deficient performance and prejudice standards that apply to trial counsel also
apply to appellate counsel. Smith v. Robbins, 528 U.S. 259,285-86 (2000). Appellate counsel is
not deficient for failing to raise non-meritorious claims on direct appeal. Diaz v. Sec ’y, Dep't of
Corr., 402 F.3d 1136, 1145 (11th Cir. 2005). If a claim omitted on appeal would have had a
reasonable probability of success on appeal, then counsel’s deficient performance resulted in
prejudice. Joiner v. United States, 103 F.3d 961,963 (11th Cir. 1997).
Here, reasonable jurists would not debate the denial of Alfaro-Granados’s claims. His
claims against trial and appellate counsel were all premised on the argument that Alfaro-Granados
was a juvenile at the time of the charged offenses, and, thus, he (1) could not be subjected to a
mandatory life sentence, see Miller, 576 U.S. at 465, and (2) arguably could not be prosecuted for
the VICAR crimes, see United States v. Under Seal, 819 F.3d 715,728 (4th Cir. 2016) (persuasive
authority) (holding that a defendant could not be prosecuted under § 1959(a)(1) if he was under
18 years’ old at the time of the alleged offense because he would be subjected to an
unconstitutional mandatory-minimum sentence of life imprisonment, in violation of Miller).
Although we have not addressed this second argument in a published opinion, we need not decide
the issue here because Alfaro-Granados was 23 years’ old in October and December 2006, when
the murders underlying his VICAR convictions took place. Additionally, even assuming that
Alfaro-Granados’s involvement in MS-13’s RICO conspiracy started before his 18th birthday,
Alfaro-Granados was not entitled to be treated as a juvenile at trial because his involvement in the
RICO conspiracy continued after his 18th birthday. United States v. Flores, 572 F.3d 1254,1270
(11th Cir. 2009) (“[I]n the context of a RICO conspiracy, if the defendant continues his

5

Case: 20-11581

Date Filed: 08/27/2020

Page: 6 of 6

participation in the activities of the conspiracy past the age of majority, those crimes may be
considered for both determining guilt and his sentence”) (emphasis omitted)). Accordingly, trial
counsel did not perform deficiently in failing to move to dismiss Counts Two and Four or object
to the mandatory life sentence based on the meritless argument that Alfaro-Granados should be
treated as a juvenile, Nyhuis, 211 F.3d at 1344, and appellate counsel did not perform deficiently
in failing to raise the same meritless argument regarding the mandatory life sentence on direct
appeal, Diaz, 402 F.3d at 1145. Accordingly, Alfaro-Granados !s COA motion is DENIED because
he has failed to make a substantial showing of the denial of a constitutional right. 28 U.S.C.
§ 2253(c)(2). His motion for leave to proceed in forma pauperis on appeal is DENIED AS MOOT.

6

Case l:10-cr-00086-RWS-CMS Document 1525 Filed 03/16/20 Page 1 of 4
APPENDIX B

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DIMAS ALFARO-GRANADOS,
Movant,

CRIMINAL ACTION NO.
1:10-CR-0086-RWS-7

v.

CIVIL ACTION NO.
1:19-CV-1556-RWS

UNITED STATES OF AMERICA,
Respondent.
ORDER

Presently before the Court is the Magistrate Judge’s Report and
Recommendation (R&R), [Doc. 1522], recommending that Movant’s motion to vacate
pursuant to 28 U.S.C. § 2255, [Doc. 1469], be denied and the case dismissed. Movant
has filed his objections in response to the R&R. [Doc. 1524].
A district judge has broad discretion to accept, reject, or modify a magistrate
judge’s proposed findings and recommendations. United States v. Raddatz. 447 U.S.
667,680 (1980). Pursuant to 28 U.S.C. § 636(b)(1), the Court reviews any portion of
the Report and Recommendation that is the subject of a proper objection on a de novo
basis and any non-objected portion under a “clearly erroneous” standard. “Parties
filing objections to a magistrate’s report and recommendation must specifically
identify those findings objected to. Frivolous, conclusive or general objections need
not be considered by the district court.” Marsden v. Moore, 847 F.2d 1536, 1548
(11th Cir. 1988).
A0 72A
(Rev.8/82)

Case l:10-cr-00086-RWS-CMS Document 1525 Filed 03/16/20 Page 2 of 4

As set forth in more detail in the R&R, Movant was convicted in this Court after
a jury trial for various counts, including racketeering conspiracy, violent crime
(murder) in aid of racketeering conspiracy, and firearms charges all of which were
related to his involvement with the La Mara Salvatrucha (MS-13) gang. This Court
sentenced Movant to a mandatory sentence of life plus thirty-five years. Movant
appealed and the Eleventh Circuit affirmed Movant’s convictions and sentences.
United States v. Alvarado-Linares, 698 F. App’x 969, 976 (11th Cir. 2017). Movant
next filed the instant § 2255 motion to vacate raising two grounds for relief: (1)
ineffective assistance by trial and sentencing counsel and (2) ineffective assistance by
appellate counsel.1 Both of his claims relate to his contention that he was a juvenile
when he joined MS-13 and that under Miller v. Alabama, 567 U.S. 460, 479 (2012),
the Eighth Amendment forbids a sentencing scheme that mandates life in prison
without possibility of parole for juvenile offenders.
In the R&R, the Magistrate Judge concluded that Movant is not entitled to
relief. Specifically, Movant’s claim that his mandatory life sentence violates the
Eighth Amendment is belied by the record as he was clearly at least eighteen at the
time of the murders in which he participated and that were the basis of his convictions.
As Movant states, he was bom on February 12, 1983. On October 27, 2006, Movant
William Morrison represented Movant both at trial and on appeal.
2
A0 72A
(Rev.8/82)

Case l:10-cr-00086-RWS-CMS Document 1525 Filed 03/16/20 Page 3 of 4

participated in the murder of Lai Ko. On December 24,2006, Movant participated in
the murder of Angel Gonzalez. Movant was 23 at the time of both of these murders,
and his claim that he should be treated as a juvenile with respect to those crimes
entirely fails. As a result, his trial/appellate counsel was not ineffective for failing to
raise that issue either at his sentencing or on appeal.
In his objections, Movant merely repeats the arguments that the Magistrate
Judge fully addressed and properly rejected. See Chester v. Bank of Am., N.A.,
1:11-CV-1562-MHS, 2012 WL 13009233 at *1 (N.D. Ga. Mar. 29,2012) (noting that
“general objections to a magistrate judge’s report and recommendation, reiterating
arguments already presented, lack the specificity required by Rule 72 and have the
same effect as a failure to object”).
Having reviewed the R&R in light of Plaintiffs objections, this Court
concludes that the Magistrate Judge is correct. Accordingly, the R&R, [Doc. 1522],
is hereby ADOPTED as the order of this Court, and the § 2255 motion, [Doc. 1469],
is DENIED.
This Court further agrees with the Magistrate Judge that Movant has failed to
make “a substantial showing of the denial of a constitutional right.” 28 U.S.C.
§ 2253(c)(2). Accordingly, a Certificate of Appealability is DENIED pursuant to
§ 2253(c)(2) and Rule 11 of the Rules Governing § 2255 cases.
3
A0 72A
(Rev.8/82)

Case l:10-cr-00086-RWS-CMS Document 1525 Filed 03/16/20 Page 4 of 4

The Clerk is DIRECTED to close Civil Action No. 1:19-CV-l 556-RWS.
IT IS SO ORDERED, this 16th day of March, 2019.

RICHARD W. STORY
United States District Judge

4
A0 72A
(Rev.8/82)

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page lot 15

APPENDIX C

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DIMAS ALFARO-GRANADOS,
Movant,

MOTION TO VACATE
28 U.S.C. § 2255

v.

CRIMINAL INDICTMENT NO.
1:10-CR-0086-RWS-CMS-7

UNITED STATES,
Respondent.

CIVIL FILE NO.
1:19-CV -15 5 6-RW S-CMS

UNITED STATES MAGISTRATE JUDGE’S
FINAL REPORT AND RECOMMENDATION
Movant has filed a 28 U.S.C. § 2255 motion to vacate, set aside, or correct his
federal sentence entered under the above criminal docket number. The matter is
before the Court on the § 2255 motion [1469], Respondent’s response [1474], and
Movant’s reply [1479]. For the reasons discussed below, Movant’s motion to vacate
and a certificate of appealability are due to be denied.
I.

Background
The grand jury for the Northern District of Georgia indicted Movant in count

one for a racketeering conspiracy based on his participation in La Mara Salvatrucha

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 2 of 15

(MS-13) gang activity beginning on a date unknown, but no later than the year 2005.
(Indictment at 2-4, ECF No. 1); see United States v. Alvarado-Linares. 698 F. App’x
969, 976 (11th Cir. 2017), cert, denied. _ U.S. _, 138 S. Ct. 1591 (2018). In addition
to count one,2 the grand jury also charged Movant in counts two and four as follows:
(count two) on October 27,2006, Movant and others, aided and abetted by each other,
did knowingly and unlawfully murder L.K. in aid of racketeering, in violation of 18
U.S.C. §§ 1959(a)(1) and 2 (governing violent crimes in aid of racketeering activity
(VICAR)), and (count four) on December 14, 2006, Movant and others, aided and
abetted by each other, did knowingly and unlawfully murder J.G. in aid of
racketeering, in violation of 18 U.S.C. §§ 1959(a)(1) and 2. (Id. at 21-22).3 The

1 Movant was bom on February 12, 1983; turned twenty-two on February 12,
2005; and, thus, was twenty-one and/or twenty-two years of age during 2005. (See
PSR at 33, ECF No. 1056).
2 The overt acts for count one included: (act 1) on October 27, 2006, Movant
and three other gang members aided and abetted each other in the shooting and killing
of fellow MS-13 member L.K.; (act 3) on December 24, 2006, Movant and other
gang members aided and abetted another MS-13 member in the shooting and killing
of Angel Gonzalez and the shooting of C.V.; and (act 6) on January 28,2007, Movant
and other gang members aided and abetted each other in the shooting and injury of
suspected rival gang member V.T. (Indictment at 11-12).
3 Movant also was (1) charged, and convicted on lesser included offenses, on
2

* 1

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 3 of 15

grand jury made a special finding as to counts two and four - that Movant “[w]as 18
years of age or older at the time of the offense[.]” (Id at 41).
Movant pleaded not guilty and proceeded to trial represented by William A.
Morrison. (See Trial Trs. Vols. I-XV, ECF Nos. 1094-1103). The jury found Movant
guilty on count one, count two, a lesser included offense on count three, count four,
and a lesser included offense on count five, and found him not guilty on counts six,
seven, twelve, and thirteen. (Jury Verdict, ECF No. 970).
The presentence investigation report (PSR) reiterated that Movant was
eighteen years of age or older at the time of the offenses in counts two and four and
stated that Movant was subject to (1) a life term on count one; (2) mandatory
minimum life terms on counts two and four, 18 U.S.C. §§ 1959(a)(1) and 2; (3) a
mandatory minimum and consecutive ten-year term on count three; and (4) a
mandatory minimum and consecutive twenty-five year term on count five, for a
custody guideline range of life plus thirty-five years.

(PSR at 1, 16, 36). At

sentencing, the Court overruled Movant’s objections that the terms were cruel and

counts three and five but, does not challenge those convictions or sentences, and
(2) charged on counts six, seven, twelve, and thirteen, which were dismissed.
3

Case 1:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 4 of 15

unusual; stated its intent to impose the mandatory minimum sentences and found that,
under § 3553 factors that would apply, the mandatory minimum sentences were
appropriate; and imposed three concurrent life sentences on counts one, two, and
four; ten consecutive years on count three; and twenty-five consecutive years on
count five. (Sentencing Tr. at 8-10, 12, ECF No. 1105).
On direct appeal, again represented by Morrison, Movant argued that the
imposition of a life sentence was cruel and unusual under the Eighth Amendment.
Br. of Def.-Appellant at 14-15, Alvarado-Linares, 698 F. App’x 969 (No. 13-14994),
2014 WL 1400443. The Eleventh Circuit Court of Appeals found as follows [Movant] challenges his life sentence as cruel and unusual punishment
pursuant to the Eighth Amendment. He acknowledges that success of
such a challenge is “exceedingly rare” under the limited proportionality
principle applicable to non-capital cases. Flores, 572 F.3d at 1268[4]
(quoting United States v. Raad. 406 F.3d 1322, 1323 (11th Cir. 2005)).
He presents no argument illustrating his case to be exceedingly rare ....
We therefore reject his challenge ....
Alvarado-Linares. 698 F. App’x at 976.

4 United States v. Flores. 572 F.3d 1254 (11th Cir. 2009).
4

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 5 of 15

Movant now brings this § 2255 motion and presents two grounds for relief:
(1) ineffective assistance by trial and sentencing counsel and (2) ineffective
assistance by appellate counsel. (Mov’t Mem. at 6-14, ECF No. 1469-1).
II.

28 U.S.C. S 2255 Standard
Section 2255 of Title 28 allows a district court to vacate, set aside, or correct

a federal sentence that was imposed in violation of the Constitution or laws of the
United States or was imposed by a court without jurisdiction, exceeds the maximum
sentence authorized by law, or is otherwise subject to collateral attack. 28 U.S.C.
§ 2255. The § 2255 movant bears the burden to establish his right to collateral relief,
Rivers v. United States. 777 F.3d 1306, 1316 (11th Cir. 2015), which is limited.
Collateral review of a claim that could have been raised on direct appeal, but
was not, is foreclosed unless the movant can show cause and prejudice for his default
or actual innocence. Fordham v. United States. 706 F.3d 1345.1349 (11th Cir. 2013).
“Once [a] defendant’s chance to appeal has been waived or exhausted, ... we are
entitled to presume he stands fairly and finally convicted,” and “to obtain collateral
relief a prisoner must clear a significantly higher hurdle than would exist on direct
appeal.” United States v. Fradv. 456 U.S. 152, 164, 166 (1982).

5

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 6 of 15

Section 2255 relief “is reserved for transgressions of constitutional rights and
for that narrow compass of other injury that could not have been raised in direct
appeal and would, if condoned, result in a complete miscarriage ofjustice.” Lynn v.
United States. 365 F.3d 1225, 1232 (11th Cir. 2004) (quoting Richards v. United
States, 837 F.2d 965, 966 (11th Cir. 1988)) (internal quotation marks omitted). A
constitutional claim of ineffective assistance of counsel, which generally cannot be
fully litigated on direct appeal, is properly raised on collateral review in order to
allow for adequate development and presentation of relevant facts. Massaro v.
United States. 538 U.S. 500, 505-09 (2003).
“The district court is not required to grant a petitioner an evidentiary hearing
if the § 2255 motion ‘and the files and records of the case conclusively show that the
prisoner is entitled to no relief.’” Rosin v. United States. 786 F.3d 873, 877 (11th
Cir. 2015) (quoting § 2255(b)). That is the case here, as shown in the discussion
below.
III.

Discussion
Movant argues that (la) trial counsel performed ineffectively by failing to

challenge his prosecution on counts two and four (VICAR crimes) when the RICO
enterprise pre-dated Movant’s eighteenth birthday (in that Movant was fifteen when,
6

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 7 of 15

in November 1998, the first MS-13 clique was organized in Atlanta)5 and, thus,
impermissibly subjected Movant to a mandatory life sentence for, what amounted to,
juvenile conduct; (lb) for the same reasons, sentencing counsel performed
ineffectively by failing to object to the PSR recommendation that Movant be
sentenced to life on counts two and four; and (2) appellate counsel performed
ineffectively by failing to raise the above challenges to his convictions and sentences
on counts two and four. (Mov’t Mem. at 6-14 (relying on, inter alia, Miller v.
Alabama. 567 U.S. 460 (2012); Roper v. Simmons. 543 U.S. 551 (2005); United
States v. Under Seal. 819 F.3d 715 (4th Cir. 2016); In re Vassell. 751 F.3d 267, 269
n.4 (4th Cir. 2014))).
Respondent argues that Movant’s claim - that counts two and four should have
been dismissed because he was a juvenile when MS-13 became active in Atlanta fails. (Resp’t Resp. at 7, 10, ECF No. 1474). Respondent agrees that Movant was
fifteen years old when MS-13 started up in Atlanta in 1998 (noting that the evidence

5 Although Movant states 1989 in the body of his memorandum he states in a
footnote that it was November 1998 and cites to the indictment, which states that the
first MS-13 clique was formed in Atlanta in November 1998 by approximately
twenty MS-13 members from California and El Salvador. (Mov’t Mem. at 9 and
n.10; see also Indictment at 4).
7

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 8 of 15

does not show whether or not Movant was an MS-13 member or whether he even
lived in Atlanta at that time) but states that the evidence shows that Movant was an
adult when he committed crimes on behalf of MS-13. (Id. at 10).
[Movant] was 23 years old when he assisted in the murder of fellow
gang member Lai Ko. He was also 23 years old when he conferred with
the clique leader, Miguel Alvarado-Linares, and they decided that
Miguel Guevara would have to shoot at a rival gang member before he
could “calm down.” The decision that [Movant] made with AlvaradoLinares led to the death of Angel Gonzalez. He cannot evade
responsibility for his adult crimes simply because he was a juvenile
when MS-13 came to Atlanta.
(Id. at 10-11). In reply, Movant repeats his prior argument and asserts that Miller
applies because he was fifteen years old when the “crimes began.” (Pet’r Reply at 4,
10, ECFNo. 1479).
A criminal defendant possesses a Sixth Amendment right to “reasonably
effective” legal assistance. Strickland v. Washington. 466 U.S. 668. 687 (19841. To
show constitutionally ineffective assistance of counsel, a movant must establish
(l)that counsel’s representation was deficient and (2) that counsel’s deficient
representation prejudiced him. Id at 690-92. The Court may resolve an ineffective
assistance claim based on either of the above prongs. Pooler v. Sec’v. Fla. Dep’t of
Corr.. 702 F.3d 1252, 1269 (11th Cir. 2012).
8

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 9 of 15

Under the first prong, a movant must show that “in light of all the
circumstances, the identified acts or omissions were outside the wide range of
professionally competent assistance.” Strickland. 466 U.S. at 690. “Because we
presume counsel was competent, [the movant] ‘must establish that no competent
counsel would have taken the action that his counsel did take.

Dell v. United States,

710 F.3d 1267, 1281 (llthCir. 2013) [quoting Chandler v. United States, 218 F.3d
1305, 1315 (11th Cir. 2000) {en banc)). Under the second prong, a movant “must
show that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different.

A reasonable

probability is a probability sufficient to undermine confidence in the outcome.”
Strickland. 466 U.S. at 694. Strickland applies to claims of ineffective assistance of
appellate counsel, and the movant must demonstrate that counsel performed
deficiently and that, if counsel had not performed deficiently, “there is a reasonable
probability of a different result in the appeal had the claim been presented in an
effective manner[.]” Butts v. GDCP Warden. 850 F.3d 1201, 1204 (11th Cir. 2017),
cert, denied.

U.S._, 138 S. Ct. 925 (2018).

9

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 10 of 15

Section 1959 of Title 18, governing VICAR, dictates (a) Whoever, as consideration for the receipt of, or as consideration for
a promise or agreement to pay, anything of pecuniary value from an
enterprise engaged in racketeering activity, or for the purpose of gaining
entrance to or maintaining or increasing position in an enterprise
engaged in racketeering activity, murders, kidnaps, maims, assaults with
a dangerous weapon, commits assault resulting in serious bodily injury
upon, or threatens to commit a crime of violence against any individual
in violation of the laws of any State or the United States, or attempts or
conspires so to do, shall be punished—
(1) for murder, by death or life imprisonment, or a fine under this
title, or both; and for kidnapping, by imprisonment for any term
of years or for life, or a fine under this title, or both ....
See Flores, 572 F.3d at 1268 (“Life sentences are expressly permitted for RICO
conspiracy and are required for VICAR murder.”).
A conspiracy is a continuing crime. Id. at 1269. “[A] conspirator commits the
crime each day that he remains a member of the conspiracy. Thus, an eighteen-yearold who continues to participate in a conspiracy after his eighteenth birthday commits
an act in violation of law after his birthday.” United States v. Maddox, 944 F.2d
1223, 1233 (6th Cir. 19911, as amended on denial of reh’g sub nom„ United States v.
Arnold. 12 F.3d 599 (6th Cir. 1993). “[I]n the context of a RICO conspiracy, if the
defendant continues his participation in the activities of the conspiracy past the age
of majority, those crimes may be considered for both determining guilt and his
10

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 11 of 15

sentence.” Flores, 572 F.3d at 1270. “[OJnce having established that certain acts of
the offense occurred after the defendant’s eighteenth birthday, the entire case may be
tried in accordance with the adult rules of procedure and evidence.” United States v.
Cruz. 805 F.2d 1464,1477 (11th Cir. 1986): see also Flores. 572 F.3d at 1269 (“Once
it has been established that a defendant’s ‘participation in a conspiracy continued
after his eighteenth birthday, then he may be tried as an adult. In his trial as an adult,
only the strictures imposed by the Federal Rules of Evidence may limit the activities
of the prosecutor.’” (quoting Cruz. 805 F.2d at 1476))).
Movant’s attempt to avoid statutory punishment - by stating that his crime
actually began in 1998, when the first MS-13 clique was formed in Atlanta and he
was fifteen years old - fails. It is not apparent that Movant was even associated with
the first clique when it formed in Atlanta in 1998. Even if he was, it would be
irrelevant because the grand jury indicted Movant on a conspiracy which was
estimated to have begun at a date unknown but no later than the year 2005. (See
Indictment at 4-16). A conspiracy is a continuing crime, and, at whatever time it
started, it was continuing in 2005, when Movant was an adult. All of the overt acts
occurred in 2006 through 2009 (the specific murders related to counts two and four
occurred in 2006), and Movant was an adult during that entire time frame. (See
11

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 12 of 15

Indictment at 10-16). Movant participated as an adult and committed the crimes as
an adult, and the Court properly applied § 1959(a). See Flores, 572 F.3d at 1269; see
also United States v. Guerrero. 768 F.3d 351, 361-62, 367 (5th Cir. 2014) (affirming
judgment against Defendant who was sixteen when his involvement in RICO
conspiracy began, who continued in the conspiracy after he turned eighteen, and who
received multiple life sentences based on predicate offenses involving murder,
committed after he had attained the age of eighteen).
Neither Miller. Roper, nor Under Seal provide a reason to find that counsel
was ineffective. The Court in Miller held that the Eighth Amendment did not allow
a mandatory, non-individualized, life term without parole for defendants who were
under the age of eighteen when they committed their crimes. Miller. 567 U.S. at 489.
The court in Roper held that the Eighth Amendment did not allow the death penalty
to be imposed on defendants who were under the age of eighteen when they
committed their capital crimes. Roper, 543 U.S. at 556, 578. The court in Under
Seal agreed with the district court that a defendant who committed murder while a
juvenile cannot be prosecuted for committing murder in aid of racketeering when
§ 1959(a)(1) requires a mandatory sentence of death or life imprisonment for that
crime. Under Seal. 819 F.3d at 728. As stated, Movant was above the age of eighteen
12

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 13 of 15

when, as a member of the conspiracy, he aided and abetted the murders at issue. The
decision in In re Vassell also is unhelpful. In that case, the court observed that Vassell
had participated in a drug conspiracy both before and after he turned eighteen;
assumed, without deciding, that Vassell qualified as a “juvenile offender” for
purposes of challenging his life sentence; and found that he was not entitled to file a
successive 28 U.S.C. § 2255 motion as it would be untimely. Id. at 268. Had counsel,
either before trial, at trial, at sentencing, or on appeal raised the argument now raised
by Movant, its chance of success is not reasonably probable.
IV.

Certificate of Appealability (COA)
Under Rule 11 of the Rules Governing § 2255 Cases, “[t]he district court must

issue or deny a certificate of appealability when it enters a final order adverse to the
applicant. ... If the court issues a certificate, the court must state the specific issue
or issues that satisfy the showing required by 28 U.S.C. § 2253(c)(2).” The Court
will issue a certificate of appealability “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). The
applicant “must demonstrate that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong.” Melton v. Sec’v, Fla.

13

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 14 of 15

Dep’t of Corn. 778 F.3d 1234, 1236 (11th Cir. 2015) (quoting Slack v. McDaniel.
529 U.S. 473, 484 (2000)) (internal quotation marks omitted).
The undersigned recommends that a COA should be denied because it is not
reasonably debatable that Movant fails to show that he is entitled to collateral relief.
If the Court adopts this recommendation and denies a COA, Movant is advised that
he “may not appeal the denial but may seek a certificate from the court of appeals
under Federal Rule of Appellate Procedure 22.” Rule 11(a), Rules Governing § 2255
Proceedings for the United States District Courts.
V.

Conclusion
For the reasons stated above,
IT IS RECOMMENDED that Movant’s motion [1469] to vacate, set aside,

or correct his federal sentence and a COA be DENIED.
The Clerk of Court is DIRECTED to withdraw the referral of this § 2255
motion from the assigned Magistrate Judge.

14

Case l:10-cr-00086-RWS-CMS Document 1522 Filed 02/27/20 Page 15 of 15

IT IS SO RECOMMENDED and DIRECTED, this 27th day of February,
2020.

'j

An &J?

CATHERINE M. SAKINAS^
UNITED STATES MAGISTRATE JUDGE

15

